Report No. D-2008-081         April 25, 2008




       Controls Over the Reconciliation of
      Defense Logistics Agency Non-Energy
               Inventory Balances
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
DLA                           Defense Logistics Agency
DSS                           Distribution Standard System
EBS                           Enterprise Business System
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704




                                                                                    April 25, 2008

MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY


SUBJECT: Report on the Controls Over the Reconciliation of Defense Logistics Agency
         Non-Energy Inventory Balances (Report No. D-2008-081)

Weare providing this report for your information and use. We considered management comments
on a draft of this report when preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD Directive 7650.3 and
left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to Ms. Amy J. Frontz at
(303) 676-7392 or Mr. Anthony C. Hans at (614) 751-1400.



                                   /~                amruJv
                                   Patricia A. Marsh, CPA
                                  Assistant Inspector General
                               Defense Fi.nancial Auditing Service
                    Report No. D-2008-081 (Project No. D2007-D000FD-0156.000)
                                           April 25, 2008

               Results in Brief: Controls Over the
               Reconciliation of Defense Logistics Agency
               Non-Energy Inventory Balances

What We Did                                             What We Recommend
The Defense Logistics Agency reported                   We recommend that the Director, Defense
$12.9 billion of non-energy inventories at the          Logistics Agency:
end of FY 2006. Inventory valuation and                    • Evaluate the automated portion of the
cataloging data is maintained in Defense                       reconciliation process and modify the
Logistics Agency supply center systems while                   system to accurately calculate
the official inventory quantity record is                      adjustments, select items for causative
maintained in DoD storage activity systems.                    research that meet DoD requirements,
Therefore, periodic reconciliations are required.              use the correct general ledger accounts
We evaluated the controls over the                             when posting adjustment reversals, and
reconciliation of non-energy inventory                         retain data supporting weekly and total
quantities between information systems at the                  reconciliations and justification for
Defense Logistics Agency supply centers and                    manual adjustments.
DoD storage activities.                                    • Perform a cost/benefit analysis on
                                                               implementing an automated capability to
What We Found                                                  identify, classify, and track the causes of
The inventory reconciliation process did not                   location reconciliation adjustments for
adequately fulfill DoD financial and operational               management analysis.
requirements. Specifically,                                • Implement management controls and
   • the automated portion of the process did                  update Defense Logistics Agency policy
       not accurately select reconciliation items              on the inventory record management
       for causative research in accordance                    process to ensure: all required causative
       with DoD criteria, calculate accurate                   research is completed in a timely
       adjustments, post adjustment reversals to               manner, physical inventories are
       the proper general ledger accounts, and                 requested when necessary, review and
       maintain sufficient audit trails; and                   approval of adjustments posted by
   • personnel responsible for manual                          resolution specialists during causative
       causative research did not perform all                  research, and retention of supporting
       required research, consistently perform                 documentation for causative research
       adequate causative research and post                    adjustments.
       proper adjustments, complete causative
       research in a timely manner, and request         Client Comments and Our
       special physical inventories when                Response
       necessary.                                       The Defense Logistics Agency concurred with
                                                        the findings and recommendations. See the
The control weaknesses impact the overall               finding section of the report for a discussion of
integrity of the inventory records that DoD             management comments.
managers rely on for operational mission
decisions and financial reporting purposes.

                                                    i
               Report No. D-2008-081 (Project No. D2007-D000FD-0156.000)
                                      April 25, 2008

Recommendations Table
Client                        Recommendations         No Additional Comments
                              Requiring Comment       Required
Director, Defense Logistics   None                    All
Agency




                                          ii
Table of Contents

Results in Brief                                                   i
Introduction                                                       1

       Objectives                                                 1
       Background                                                 1
       Review of Internal Controls                                3

Adequacy of Inventory Reconciliations                              5

       Recommendations, Client Comments, and Our Response         14

Appendices

       A. Scope and Methodology                                   19
       B. Causes of Sampled Location Reconciliation Adjustments   20
       C. Weekly Location Reconciliation Accuracy Rates           21

Management Comments

       Defense Logistics Agency Comments                          23
Introduction
Objectives
Our overall audit objective was to evaluate the controls over the reconciliation of
non-energy inventory quantities between information systems at the Defense Logistics
Agency (DLA) storage activities and supply centers. Specifically, we evaluated the
process in place to perform the reconciliation and determined if controls were in place to
ensure that an accurate inventory quantity balance is financially reported. See
Appendix A for a discussion of the scope and methodology, and for prior coverage
related to the objectives.

Background
Management and distribution of DoD inventories are major logistics functions performed
by the DLA in support of the warfighter. DLA manages inventories by supply chain.
Non-energy inventories consist of clothing and textiles; electronics, industrial, general,
and construction supplies; subsistence; and medical material. DLA reported $12.9 billion
of non-energy inventories at the end of FY 2006.

There are six DLA non-energy supply chains managed by Defense supply centers located
in Columbus, Ohio; Philadelphia, Pennsylvania; and Richmond, Virginia. The Defense
Supply Center Columbus manages the land and maritime inventory supply chain. The
Defense Supply Center Philadelphia manages the medical, subsistence, construction and
equipment, and clothing and textile inventory supply chains. The Defense Supply Center
Richmond manages the aviation inventory supply chain. DLA supply centers use the
Enterprise Business System (EBS) to maintain quantity, valuation, and cataloging data
for each inventory item. Inventory balances maintained in EBS are used to make
important business decisions (such as purchasing, stock positioning, and disposals) and to
prepare the DLA financial statements.

DLA stores a majority of its inventories at 26 worldwide distribution centers. These
storage activities are responsible for maintaining the official accountable record for
inventory quantities. The official accountable inventory quantity record at 25 of the
distribution depots is maintained in the Distribution Standard System (DSS). 1 Because
the official accountable inventory quantity record is maintained in DoD storage activity
systems, DLA must perform a reconciliation between those systems and EBS.
Adjustments are posted to EBS for quantity differences in order to synchronize the EBS
balance with the DoD storage activity balance. DLA developed its inventory record
management process to accomplish the required reconciliations. DLA performed the
process weekly for all active inventory items that had transactions affecting their balances
(for example, issues or receipts) and annually for all inventory items. The annual



1
    The Defense Distribution Depot Kuwait did not use DSS during our audit.


                                                     1
reconciliation is performed in late September each year and is also referred to as the total
reconciliation.

DoD Financial Guidance on Inventory Reconciliations. DoD 7000.14-R, “DoD
Financial Management Regulation,” volume 11B, “Reimbursable Operations Policies and
Procedures – Working Capital Funds,” chapter 55, “Supply Management Operations,”
December 1994, states that line item accountability records must be reconciled to
balances recorded in the general ledger inventory accounts at least quarterly. The
regulation further states that when differences between the line item accountability
records and general ledger balances are found, the differences must be investigated to
determine the cause(s) and error(s) found during the investigation must be corrected. The
regulation also states that reconciliations may be required more frequently to identify the
cause(s) of the difference(s).

DoD Operational Guidance on Inventory Reconciliations. DoD 4000.25-2-M,
“Military Standard Transaction Reporting and Accounting Procedures” chapter 7,
“Physical Inventory Control,” September 2001, provides guidance on the DoD physical
inventory control program for all DoD Components. DoD policy requires DoD storage
activities to maintain the property accountability records for all material in storage
regardless of ownership and to maintain transaction histories to support the balance. A
single total item property record is to be shared between the owner and DoD storage
activity to identify the quantity, condition, and value of the item. DoD policy addresses
location reconciliations, causative research, and supporting data retention requirements.

        Location Reconciliations. DoD policy states that absent a single total item
property record, the inventory owners and DoD storage activities are required to perform
location reconciliations daily for all active records (stock numbers that had any
transaction affecting the record balances) and annually for all stock. Location
reconciliation is a match between DoD storage activity records and owner records to
identify and correct situations where there is:

   •   an owner record with no corresponding storage activity record,
   •   a storage activity record with no corresponding owner record,
   •   common elements of data that do not match, and
   •   quantity discrepancies.

When location reconciliations identify quantity discrepancies between the owner’s
system and the DoD storage activity’s system, the owner is required to post adjustments
to the system balance to match the DoD storage activity’s official record balance.

        Causative Research. DoD policy defines causative research as research into the
cause(s) of a discrepancy identified during the location reconciliation process. Causative
research is required for adjustments that meet specific criteria. Causative research into
location reconciliation errors is performed by the owners of the inventory with the
assistance of the DoD storage activity, as necessary. Causative research involves the
review and comparison of the owner and DoD storage activity transaction histories to


                                             2
identify missing, duplicate, or erroneous transactions that caused the quantity
discrepancy. If the transaction history review fails to identify the cause(s), under certain
circumstances, owners must request that the DoD storage activity perform a physical
inventory to validate the balance.

When causative research identifies the transaction(s) that caused the quantity
discrepancy, the owner must reverse the location reconciliation adjustment and post the
necessary transactions to synchronize the balances. If causative research fails to identify
the cause(s) of the quantity discrepancy, the accounting adjustment posted during
location reconciliation will remain on the owners balance. Table 1 lists the DoD
causative research requirements for potential or actual physical inventory adjustments.

                  Table 1. DoD Causative Research Requirements
   Condition of Inventory Balance Discrepancy            Causative Research
   ≤ $5,000                                                              NO
   > $5,000 but ≤ $16,000 and ≤ 25 percent unit variance               SAMPLE
   > $5,000 but ≤ $16,000 and > 25 percent unit variance                 YES
   > $16,000                                                             YES
   Controlled Inventory Items                                            YES
   Suspected Fraud, Waste, or Abuse                                      YES

        Retention of Accountable Documentation. Organizations are required to
maintain audit capability following the processing of documents and data and the
completion of research efforts. Specifically, original source documents, transaction
histories, and physical inventory adjustment research backup documentation is to be
maintained for at least 2 years.

Review of Internal Controls
We determined that a material internal control weaknesses in the DLA inventory
reconciliation process existed as defined by DoD Instruction 5010.40, “Managers’
Internal Control (MIC) Program Procedures,” January 4, 2006. DoD Instruction 5010.40
states that internal controls are the organization, policies, and procedures that help
program and financial managers to achieve results and safeguard the integrity of their
programs. Implementing all recommendations in this report will improve DLA internal
controls over the reconciliation of inventories between supply centers and storage
activities and provide reasonable assurance that the EBS inventory balances are complete
and accurate. A copy of the report will be provided to the DLA senior officials in charge
of management controls.




                                              3
Adequacy of Inventory Reconciliations
DLA has made great strides in developing and implementing the process used to
reconcile inventory balances between its supply centers and DoD storage activities.
However, the reconciliation process did not adequately fulfill DoD financial and
operational requirements. Specifically,

   •   the automated portion of the process did not accurately select reconciliation items
       for causative research in accordance with DoD criteria, calculate accurate
       adjustments, post adjustment reversals to the proper general ledger accounts, and
       maintain sufficient audit trails; and
   •   personnel responsible for manual causative research did not perform all required
       research, consistently perform adequate causative research and post proper
       adjustments, complete causative research in a timely manner, and request special
       physical inventories when necessary.

The process did not fulfill requirements because of system design limitations and
inadequate management controls. The control weaknesses impact the overall integrity of
the EBS inventory records that DLA managers rely on for operational mission decisions
and financial reporting purposes.


DLA Inventory Reconciliation Process
The DLA inventory record management process consists of weekly reconciliations on
active stock and also a total reconciliation on all stock performed annually. DLA
developed a draft inventory record management policy which establishes DLA
implementing policy and guidance for the process, its objectives, and metrics for DLA
owned assets. The process is a combination of automated reconciliations and
adjustments followed by manual causative research. We selected a sample of
adjustments resulting from weekly reconciliations to evaluate the overall effectiveness of
the process.

Automated Reconciliations and Adjustments. The inventory reconciliation process
begins with EBS obtaining inventory cataloging and end-of-day quantity information
from each of the 26 DoD storage activities and comparing the records to those maintained
in EBS. When quantity discrepancies occur, EBS initially considers in-float transactions
(receipts, issues, or other transactions that may not have posted in both systems). Next,
EBS requests and compares the DoD storage activity transaction histories to the EBS
transaction histories. The EBS balance is adjusted when necessary to match the DoD
storage activity balance. Once adjustments are posted, EBS calculates the value of
adjustments and selects items for causative research based on set criteria. Adjustments
for controlled items or items that meet certain dollar value and quantity variance
thresholds are required to be researched to determine the cause(s) of the quantity


                                            5
discrepancy and to ensure that the adjustment synchronized the balances. EBS generates
a series of exception and summary reports for use in the manual research process.

Manual Causative Research. Resolution specialists at the DLA supply centers use the
EBS reports to determine which adjustments to research. The primary EBS report used is
titled, “Lines of Inventory Adjusted, Causative Research Required.” Resolution
specialists select items from this report and manually review and compare the EBS and
DoD storage activity transaction histories to determine how the quantity discrepancy
occurred. The resolution specialists also ensure that the adjustment posted to EBS
synchronized the DoD storage activity and supply center balances.

If causative research identifies the cause(s) of the discrepancy or the item is not in
balance with the DoD storage activity balance, the resolution specialist reverses the
adjustment posted by EBS and manually posts the necessary transactions and adjustments
to synchronize the EBS and DoD storage activity balances. If causative research fails to
identify the cause(s) of the discrepancy and the item is in balance with the DoD storage
activity, the adjustment originally posted in EBS will remain. Defense supply center
business process analysts assist and advise the resolution specialists on reconciliation
issues.

Audit Sample of Adjustments. We selected a sample of 109 adjustments with a gross
adjustment value of $35.67 million to evaluate the overall effectiveness of the process.
The 109 adjustments were selected from EBS reports on “Lines of Inventory Adjusted,
Causative Research Required” that resulted from five weekly reconciliations at the
Defense Supply Centers in Columbus, Philadelphia, and Richmond. We did not review
the FY 2006 total reconciliation because DLA could not provide the supporting EBS data
files.


System Design Limitations
System design limitations negatively impacted the effectiveness of the reconciliation
process. Specifically, EBS did not accurately select reconciliation adjustments for
causative research in accordance with DoD criteria, calculate accurate adjustments, post
adjustment reversals to the proper general ledger accounts, or maintain sufficient audit
trails.

Selection of Adjustments for Causative Research. Adjustments resulting from the
location reconciliation process were selected by EBS for causative research when they
did not meet DoD causative research criteria. Of the 109 causative research adjustments
we reviewed, 25 did not meet DoD causative research criteria. According to
DoD 4000.25-2-M, the requirements used for selecting physical inventory adjustments
for causative research must be used when selecting location reconciliation adjustments
for causative research.




                                            6
We also sampled all adjustments that were identified as requiring causative research from
four weekly reconciliation reports generated by EBS on April 24, May 15, June 19, and
July 17 of 2007. As shown in Table 2, the weekly reports contained a total of
6,667 location reconciliation adjustments with a gross adjustment value of
$182.28 million. Our analysis revealed that 2,911 of the adjustments were uncontrolled
items with an extended adjustment value below the $5,000 DoD threshold and should not
have been reported as requiring causative research.

             Table 2. Analysis of Weekly Inventory Reconciliation Reports
                                              Causative                         Gross Adjustment
                                              Research          Total Items          Value
   Discrepancy Adjustment Value              Requirement         Reported          (Millions)
   > $16,000                                      YES              1,689              $167.01
   > $5,000 but ≤ $16,000                         YES*             1,514                13.56
   Controlled Items ≤ $5,000                      YES                553                 0.47
   Uncontrolled Items ≤ $5,000                    NO               2,911                 1.24
    Total                                                          6,667              $182.28
   *
    If unit variance is 25 percent or greater. We were unable to determine how many of the
   1,514 items in this category required research because EBS reports do not identify unit variance
   percentages.


DLA has not established a methodology to prioritize causative research adjustments
listed on EBS exception reports for review and completion. Therefore, adjustments on
reports that do not meet DoD causative research requirements can create unnecessary
workload and preclude resolution specialists from completing required research.
Causative research can be a tedious, time consuming, and complex process involving the
review of lengthy transaction histories.

DLA Supply Center resolution specialists responsible for performing causative research
stated that they do not prioritize their causative research based on dollar value of the
adjustments, and some resolution specialists were not aware of DoD causative research
criteria. For example, during our site visit to the Defense Supply Center Columbus, 22 of
the 44 sampled adjustments did not meet DoD causative research criteria and one
responsible resolution specialist was not aware of the applicable criteria.

Calculation of Adjustments. EBS did not always calculate accurate inventory
adjustments after comparison to the DoD storage activity balances. Our sample of 109
adjustments contained 31 adjustments that were inaccurately calculated and did not
synchronize the EBS balance with the storage activity balance. The inaccurate
adjustments generally occurred because EBS did not adequately consider in-float
transactions when calculating adjustment quantities.

EBS accounts for inventory in several categories including: unrestricted, blocked, quality
inspection, and scheduled for delivery. The first three categories maintain inventory


                                                    7
balances; the scheduled-for-delivery category represents the balance of orders placed by
customers. When an order is placed by a customer, EBS populates the
scheduled-for-delivery category with the ordered quantity and transmits the order to the
applicable DoD storage activity for shipment. During the reconciliation process, EBS
calculates an on-hand inventory balance by subtracting the scheduled-for-delivery
quantity from unrestricted stock. However, situations can occur that cause EBS to
calculate an inaccurate adjustment as a result of the inventory balance calculation.

For example, if EBS has not transmitted an order to the DoD storage activity, it would be
inaccurate to subtract that order quantity from unrestricted stock. This situation occurred
for a gain adjustment of 586, valued at $439,008, we reviewed at the Defense Supply
Center Philadelphia. The transaction involved material number 998357866 that was
stored at the Defense Distribution Depot Europe. The responsible business process
analyst stated that 547 of the adjustment quantity, valued at $409,791, were erroneous
because the DoD storage activity had not received several orders that were contained in
the EBS scheduled for delivery category.

General Ledger Account Postings. EBS did not post inventory adjustment reversals to
the proper general ledger accounts. Specifically, 14 of the 16 reversal transactions that
we reviewed were posted to incorrect general ledger accounts. Table 3 lists the DLA
general ledger accounts that identify adjustments associated with the DLA inventory
reconciliation process:

         Table 3. DLA General Ledger Accounts for Inventory Adjustments
        Account Number           General Ledger Account Title
            15210100             Inventory Stock On Hand
            71900150             Causative Research Inventory Gain
            71900160             Non-Causative Research Inventory Gain
            72900150             Causative Research Inventory Loss
            72900160             Non-Causative Research Inventory Loss

DLA required the inventory reconciliation process to be capable of posting adjustments
to the unrestricted, blocked, and quality inspection stock categories. The accounting
transactions (debits and credits) posted to the DLA general ledger for a causative research
gain and the proper reversal should be as follows:

       Gain - Debit 15210100: Inventory Stock On-Hand
                      Credit 71900150: Causative Research Inventory Gain

       Reversal - Debit 71900150: Causative Research Inventory Gain
                     Credit 15210100: Inventory Stock On-Hand




                                             8
The accounting transactions posted to the DLA general ledger for a causative research
loss and the proper reversal should be as follows:

       Loss - Debit 72900150: Causative Research Inventory Loss
                      Credit 15210100: Inventory Stock On-Hand

       Reversal - Debit 15210100: Inventory Stock On-Hand
                     Credit 72900150: Causative Research Inventory Loss


From the 109 causative research items we sampled, we traced 17 adjustments and
16 adjustment reversal transactions to the DLA general ledger to validate the general
ledger accounts the adjustments were posted against. Our analysis indicated that all 17 of
the adjustments posted to the correct general ledger accounts. However, of the
16 reversals, only 2 posted the proper transactions and the remaining 14 posted an
offsetting adjustment rather than a reversal of the original erroneous transaction.

For example, we traced a causative research gain reversal for a quantity of 3,670, valued
at $302,188, to the EBS general ledger. The transaction was posted for material
number 014469498 managed by the Defense Supply Center Richmond. The transaction
that improperly posted to the general ledger was an offsetting causative research loss
instead of a causative research gain reversal. By posting offset adjustments rather than
reversals, DLA overstates its general ledger accounts for inventory gains and losses.
DLA policy states that when reversing an adjustment the EBS must post true reversals,
not offsetting adjustments.

Audit Capabilities. EBS did not maintain sufficient audit trail capabilities necessary to
comply with DoD policy. Therefore, our ability to validate the EBS portion of the total
and weekly reconciliations was inhibited and causative research had to be performed
again to validate causative research adjustments. For auditors to evaluate and validate
any system, application, or process, capabilities must exist for the auditor to obtain
original source data or documentation to perform independent calculations and compare
results to output. Further, capabilities should exist in the system to identify location
reconciliation adjustment causes and to explain and justify manual adjustments.
DoD 4000.25-2-M requires original source documents, transaction histories, and
adjustment research backup documentation to be maintained for at least 2 years.

FY 2006 Total Reconciliation. We attempted to obtain copies of all DSS and EBS data
files supporting the FY 2006 DLA total inventory reconciliation. DLA was able to
provide the DSS files but could not provide the supporting EBS files. DLA officials
informed us that the EBS files supporting the inventory record management process were
overwritten after 7 days. Because DLA could not provide the EBS data, our ability to
validate the EBS portion of the inventory reconciliation process was inhibited. DLA
officials informed us that a system change request would be submitted to enable EBS to
retain the supporting data.




                                            9
FY 2007 Weekly Reconciliations. We attempted to review and validate the results of
completed causative research adjustments resulting from FY 2007 weekly reconciliations
and found that support for the adjustments was not maintained in EBS. Therefore, the
causative research had to be performed again for all our sample items because it was not
apparent why the adjustments were posted. Further, we were unable to determine
whether the adjustments were posted during causative research or during another
operational process. EBS should have the capability to retain supporting data that
explains and justifies manual adjustments posted during the inventory reconciliation
process.

Location Reconciliation Adjustment Causes. Identification and classification of
adjustments and their causes are not only important from an audit perspective, but also
would allow DLA management to identify and correct repetitive processing errors that
occur during location reconciliations. According to DoD 4000.25-2-M, analysis of
inventory adjustments is vital to identify failures in the control systems so improvements
can be made to:

   •   reduce similar discrepancies in the future;
   •   ensure that the proper adjustment was made;
   •   evaluate indicators of trends or system problems for corrective action; and
   •   detect negligence, abuse, or theft of material.

DLA has established a process within DSS to identify, classify, and analyze errors
resulting in physical inventory adjustments. However, no such capability exists in EBS
for accounting adjustments resulting from location reconciliations. For informational
purposes, we classified and summarized the causes for the causative research adjustments
reviewed during our audit (see Appendix B for details).

Other System Issues. In addition to the system design limitations previously discussed,
several other system issues impacted the inventory reconciliation process during our
audit. Specifically,

   •   EBS did not have the capability to reconcile at least $775 million in inventories
       stored at locations not using DSS,
   •   the EBS automatic adjustment function was turned off during a portion of our
       audit,
   •   seven system change requests were outstanding to correct previously identified
       EBS system limitations and issues arose during the audit which resulted in
       additional system change requests, and
   •   a flaw in the methodology used by EBS to calculate the inventory reconciliation
       accuracy rate caused the rate to be misstated on summary reports (see Appendix C
       for details).




                                            10
Controls Over Manual Causative Research
DLA did not establish adequate management controls to ensure that causative research
was performed in accordance with DoD financial and operational guidelines.
Specifically, controls were not in place to ensure that resolution specialists performed all
required research, consistently performed adequate causative research and posted proper
adjustments, completed research in a timely manner, and requested special physical
inventories when necessary.

Performance of Causative Research. Resolution specialists did not always perform
required causative research. DLA non-energy inventory is divided into six supply chains,
and the Defense Supply Center Philadelphia manages inventory items in the clothing and
textiles, construction and equipment, subsistence, and medical supply chains. Our June
2007 site visit revealed that three of the four supply chains managed by the Defense
Supply Center Philadelphia were not performing causative research. These included the
construction and equipment, subsistence, and medical inventory supply chains.

       Construction and Equipment Inventory. Personnel in the construction and
equipment supply chain stated that it was their understanding that the EBS portion of the
inventory reconciliation process was not functioning and, therefore, they were not
required to perform causative research. We determined that the EBS portion was
functioning and DLA officials informed us that the required research should have been
performed.

        Subsistence Inventory. DLA officials stated that a majority of the subsistence
inventory was stored commercially and was not reconciled. Additionally, DLA officials
stated that meals ready-to-eat represented a significant portion of subsistence inventory;
EBS is not capable of performing reconciliation automatic adjustments for these items
because they are maintained by location and batch year (year produced) and DSS does
not maintain a corresponding field. When EBS calculates an adjustment, it does not
know which batch year to post the adjustment to because the DSS balance it compares
against is by location total only. The process used to produce and receipt these items into
EBS almost always requires manual posting of transactions and constant monitoring.

       Medical Inventory. DLA officials stated that medical inventory stored by
vendors was not reconciled. In addition, medical inventory is positioned at Army sites
and various DLA distribution depots. The medical supply chain converted to the EBS in
December 2006 and location reconciliations were not performed prior to the conversion.
DLA is currently working on improving the EBS portion of the inventory reconciliation
process to include medical supply chain items stored by the Army.

Adequacy of Causative Research. Resolution specialists did not consistently perform
adequate causative research and post proper adjustments. The purpose of location
reconciliation causative research is to identify and correct the transaction(s) that caused
the quantity discrepancy and ensure the EBS and DoD storage activity balances are
synchronized. When research fails to identify the cause(s) of the discrepancy, DoD


                                             11
policy specifies that the accounting adjustment posted during the location reconciliation
will remain on the owners balance. For 25 of the 109 causative research adjustments we
reviewed, the resolution specialist either did not identify all causes of the discrepancy to
justify the adjustments they posted or did not post sufficient adjustments to synchronize
the balances between the systems. Overall, the supply centers did not have a formal
process in place to allow for management review and approval of causative research
adjustments posted by the resolution specialists.

For example, during our site visit to the Defense Supply Center Columbus, we reviewed
material number 013337632 stored at the Defense Distribution Depot in Red River,
Texas. EBS indicated on April 24, 2007, that the item required a causative research gain
of 804 tires with a $199,392 adjustment value. Causative research observed on May 17,
2007, identified the actual quantity discrepancy between the systems as 2,181 with a
$540,888 adjustment value. Ownership of the item was being reassigned to DLA from
the Army through logistical reassignment transactions. The resolution specialist stated
that missing logistical reassignment transactions in EBS caused the quantity
discrepancies but these transaction discrepancies only accounted for a variance quantity
of 97. The responsible business process analyst advised posting a logistical reassignment
adjustment of 1,432, which equaled the quantity suggested by EBS for the reconciliation
that completed on May 15, 2007. The resolution specialist did as advised, but the EBS
balance remained 749 lower than the DSS balance. Ultimately, a second round of
causative research was necessary to synchronize the system balances for this item.

Timeliness of Causative Research. DLA resolution specialists did not complete
causative research in a timely manner. Timely completion of research is essential
because delays only increase the complexities of adequate research and reduce the
probability of conclusive findings. We sampled adjustments identified by EBS as
requiring causative research and conducted our site visits 3 to 5 weeks after the weekly
location reconciliations were completed. As illustrated in Table 4, causative research had
only been completed for 10 of the 58 items we sampled.

              Table 4. Completion of Sampled Causative Research Items

                                                             Causative Research
                  Report         Site                  Completed       Not Completed
      Supply       Run           Visit      Items       Before             Before
      Center       Date          Date      Sampled     Site Visit        Site Visit
    Columbus     April 24      May 14         23            6                17
    Philadelphia May 15        June 19        25           0                 25
    Richmond     July 17       Aug 21         10            4                 6
     Totals                                   58           10                48

We also found that causative research had not been completed in a timely manner for
significant adjustments. For example, during our site visit to the Defense Supply Center
Philadelphia, we reviewed material number 013275335 stored at the Defense Distribution


                                             12
Depot Susquehanna. EBS indicated on May 15, 2007, that the item required a loss for a
quantity of 216,754 valued at $5,429,688. Our site visit, which occurred 5 weeks after
the reconciliation processed, determined that an adjustment was required but was never
made because causative research had not yet been performed. DLA needs to ensure
causative research is completed in a timely manner.

Overall, we were unable to determine the number of adjustments that required causative
research and the number for which causative research was completed or the average days
required to complete the research because EBS does not maintain the necessary
information. In addition, the supply centers do not maintain data outside of EBS on
causative research adjustments generated and completed. DoD 4000.25-2-M requires
that causative research on physical inventory adjustments be completed within 45 days.
We believe that this time frame would also be reasonable for the completion of causative
research on accounting adjustments resulting from location reconciliations.

Requests for Special Physical Inventories. Resolution specialists did not request
special physical inventories when necessary. During the research phase of the inventory
reconciliation process, resolution specialists review and compare EBS and DoD storage
activity transaction histories to determine how the quantity discrepancy between the
systems occurred. DoD policy states that if the review of the transaction histories fails to
identify the cause(s) of the quantity discrepancy, the owner must request the storage
activity perform a physical inventory of the item if:

   •   the item is classified, sensitive, or pilferable and the extended dollar value of the
       variance is greater than $100, or
   •   the extended dollar value of the variance is greater than $5,000 and 10% of the
       items beginning value.

Of the 109 items we reviewed, there were five causative research adjustments where the
resolution specialists failed to identify the cause(s) of the quantity discrepancy and where
the variance met the requirements to have a special physical inventory conducted. In all
five cases, the resolution specialist performing causative research did not request the
DoD storage activity to perform a physical inventory and validate the items on-hand
balances. Further, resolution specialists stated that they do not request DoD storage
activities to perform physical inventories to verify on-hand balances.

For example, during our site visit to the Defense Supply Center Richmond, causative
research was performed on material number 015298073 stored at the Defense
Distribution Depot Susquehanna Pennsylvania. EBS indicated that a causative research
gain of 23 parts kits, valued at $72,588, was required for the item. The EBS balance was
zero at the time research was performed. Research did not yield the cause of the
difference between the two systems. DLA personnel posted an adjustment to EBS to
synchronize the balance with DSS, but the depot was not requested to physically
inventory the item.




                                             13
Conclusion
DLA has made great strides in developing and implementing its inventory record
management process. However, additional improvements to the system, process, and
controls are necessary. We identified several weaknesses in the EBS portion of the
inventory reconciliation process and management controls were not in place to track the
performance and completion of causative research, review and approve adjustments
posted by resolution specialists, and to maintain documentation to support adjustments.
DLA needs to develop a methodology to monitor the performance and completion of
causative research. Without a method to monitor this workload, managers cannot
determine if resolution specialists are performing their job functions adequately and in a
timely manner. DLA also needs to develop a process for reviewing and approving
adjustments posted by resolution specialists. Reviewing and approving adjustments can
ensure that resolution specialists perform sufficient research, request inventories when
necessary, and post proper adjustments to the DLA general ledger. Resolution specialists
do not maintain, and DLA policy does not require them to maintain, documentation to
support causative research adjustments. DLA should update and enforce policy to ensure
sufficient audit trails are available to support causative research adjustments. The control
weaknesses impact the overall integrity of the EBS inventory records.


Recommendations, Client Comments, and Our
Response
We recommend that Director, Defense Logistics Agency:

     1. Evaluate the Enterprise Business System portion of the inventory record
management process and modify the system to:
            a. Ensure adequate consideration is given to in-float transactions
     when calculating adjustments.

Management Comments. The Defense Logistics Agency concurred with the
recommendation. The Executive Director of Material Policy, Process and Assessment
stated that an analysis of the Inventory Records Management adjustment logic in the
Enterprise Business System will be performed and completed no later than fourth quarter
FY 2008. The analysis will identify the necessary system changes required to prevent the
Enterprise Business System from posting erroneous adjustments.

Audit Response. The Defense Logistics Agency comments are fully responsive and the
planned actions meet the intent of the recommendation.

             b. Accurately select items for causative research that meet
       DoD 4000.25-2-M, “Military Standard Transaction Reporting and
       Accounting Procedures” requirements.



                                            14
Management Comments. The Defense Logistics Agency concurred with the
recommendation. The Executive Director of Material Policy, Process and Assessment
stated that policy will be developed no later than fourth quarter FY 2008 that will identify
transaction research requirements for potential or actual accounting adjustments as
specified in DoD 4000.25-2-M. Further, the Executive Director stated that the Defense
Logistics Agency will analyze and modify Enterprise Business System logic for
calculating and selecting adjustments for causative research.

Audit Response. The Defense Logistics Agency comments are fully responsive and the
planned actions meet the intent of the recommendation.

              c. Use the correct general ledger accounts when posting location
       reconciliation adjustment reversals.

Management Comments. The Defense Logistics Agency concurred with the
recommendation. The Executive Director of Material Policy, Process and Assessment
stated an Integrated Process Team will be established to evaluate and correct the posting
logic in the Enterprise Business System for each of the respective Inventory General
Ledger Accounts. Further, the Executive Director stated that the Defense Logistics
Agency has issued instructions to resolution specialists as an interim solution to ensure
proper reversals of Inventory Record Management adjustments.

Audit Response. The Defense Logistics Agency comments are fully responsive; the
interim solution and the planned actions meet the intent of the recommendation.

               d. Retain data supporting weekly and total reconciliations and
       justification for manual adjustments in accordance with DoD 4000.25-2-M
       requirements.

Management Comments. The Defense Logistics Agency concurred with the
recommendation. The Executive Director of Material Policy, Process and Assessment
stated that the Enterprise Business Systems data storage capabilities will be assessed, and
data files will be archived for a minimum of 2 years as required by DoD 4000.25-2-M
and the Defense Logistics Agency One Book Policy Chapter on Source Documentation
Retention.

Audit Response. The Defense Logistics Agency comments are fully responsive and the
planned actions meet the intent of the recommendation.

       2. Perform a cost/benefit analysis on implementing a capability in the
Enterprise Business System to identify, classify, and track the causes of location
reconciliation adjustments for management analysis.

Management Comments. The Defense Logistics Agency concurred with the
recommendation. The Executive Director of Material Policy, Process and Assessment
stated that a cost/benefit analysis for future enhancements to the Enterprise Business



                                            15
System to allow Resolution Specialists to systemically identify the causes of errors which
resulted in Inventory Record Management accounting adjustments will be completed no
later than first quarter FY 2009. This enhancement will provide the Defense Logistics
Agency with capabilities to identify and correct repetitive processing errors.

Audit Response. The Defense Logistics Agency comments are fully responsive and the
planned actions meet the intent of the recommendation.

       3. Implement management controls and update Defense Logistics Agency
policy on the inventory record management process to ensure:
               a. All required causative research is completed in a timely manner
       and physical inventories are requested when necessary.

Management Comments. The Defense Logistics Agency concurred with the
recommendation. The Executive Director of Material Policy, Process and Assessment
stated that policy will be updated no later than fourth quarter FY 2008 to establish a
standard time frame for causative research and require Resolution Specialists to initiate
physical inventory counts when necessary. Further, the Defense Logistics Agency stated
that training materials, job aids, and classroom instruction will be updated to incorporate
new guidelines.

Audit Response. The Defense Logistics Agency comments are fully responsive and the
planned actions meet the intent of the recommendation.

              b. Review and approval of adjustments posted by resolution
       specialists during causative research.

Management Comments. The Defense Logistics Agency concurred with the
recommendation. The Executive Director of Material Policy, Process and Assessment
stated that a policy memorandum was released in January 2008 that establishes guidelines
for supervisory level review and approval of inventory accounting adjustments initiated
by Resolution Specialists. The policy establishes dollar value thresholds for review and
approval, and will be incorporated into the Inventory Record Management One Book
policy update.

Audit Response. The Defense Logistics Agency comments are fully responsive; the
actions taken and planned meet the intent of the recommendation.

             c. Retention of supporting documentation for causative research
       adjustments.

Management Comments. The Defense Logistics Agency concurred with the
recommendation. The Executive Director of Material Policy, Process and Assessment
stated that a policy memorandum was released in January 2008 that establishes the
requirement to maintain hard and soft copy documentation and forms for causative
research adjustments for a 2-year time frame, consistent with DoD 4000.25-2-M and the



                                            16
Defense Logistics Agency One Book Policy Chapter on Source Documentation
Retention. Further, the Executive Director stated that the Defense Logistics Agency
developed an Inventory Adjustment Report form for manual transactional research to
ensure tracking of adjustments and to comply with source documentation retention
requirements.

Audit Response. The Defense Logistics Agency comments are fully responsive; the
actions taken and planned meet the intent of the recommendation.




                                          17
Appendix A. Scope and Methodology
We conducted this financial related audit from March 2007 through February 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The audit was performed at the DLA headquarters, the Defense Supply Center Columbus,
Defense Supply Center Philadelphia, and Defense Supply Center Richmond. We
reviewed applicable DoD logistics and financial policy. In addition, we reviewed a DLA
draft inventory record management policy provided to us in April 2007. We also
reviewed additional causative research procedures including a causative research job aid
dated June 19, 2006, and an inventory comparison reports job aid dated January 31, 2007.

We interviewed personnel at DLA headquarters involved with the inventory
reconciliation process and also interviewed Defense Supply Center business process
analysts and resolution specialists. In addition, we interviewed the Director of the
Medical Supplier Operations Directorate and the Director and Deputy Director of the
Subsistence Supplier Directorate at the Defense Supply Center Philadelphia.
We used non-statistical sampling procedures and selected for review and observation of
location reconciliation causative research 109 location reconciliation causative research
adjustments with a gross adjustment value of $35.67 million from five weekly inventory
reconciliations. Our scope was limited because DLA could not produce the supporting
EBS data files and we could not review the FY 2006 total reconciliation.

Use of Computer-Processed Data
We used computer-processed data to perform this audit. Specifically, we used Inventory
Comparison Reports generated by EBS. We did not test the general and application
controls of the EBS and did not make any conclusions about the reliability of the data.
To determine the reliability of the data, we observed and reviewed causative research to
determine the accuracy of adjustments generated by EBS.


Prior Coverage
No prior coverage has been conducted on DLA inventory reconciliations during the last
5 years.




                                            19
Appendix B. Causes of Sampled Location
Reconciliation Adjustments
The following table lists causes of location reconciliation adjustments that were identified
during our causative research observations and the number of occurrences for each cause
identified. Several adjustments had multiple causes for the quantity discrepancy between
EBS and the DoD storage activities. Transactions that failed to post in EBS caused the
majority of the location reconciliation adjustments.


                      Identified Causes of Quantity Discrepancies
                                                                          Number of
                     Description of Cause Identified                      Occurrences
   EBS failed transaction - logistical transfer                               24
   EBS failed transaction - physical inventory loss                           12
   Cancelled order posted improperly to EBS                                   11
   EBS failed transaction – receipt                                           9
   Incorrect EBS adjustment (gain)                                            8
   Incorrect EBS adjustment (loss)                                            6
   Logistical transfer posted a different quantity in EBS than in DSS         5
   Supply center error                                                         5
   EBS failed transaction - receipt reversal                                  4
   Overage receipts left in blocked stock                                     3
   Defense Distribution Center error                                           2
   DoD storage activity error                                                 2
   EBS failed transaction - physical inventory loss reversal                   2
   EBS failed transaction - shipment confirmation                             2
   Logistical transfer posted in EBS but not in DSS                           2
   EBS failed transaction - physical inventory gain                            1
   Resolution specialist error                                                 1
   Time zone                                                                  1




                                            20
Appendix C. Weekly Location Reconciliation
Accuracy Rates
DLA performs the inventory reconciliation process weekly for all active inventory items
that had a balance affecting transaction (for example, issues or receipts) and a total
reconciliation for all inventory items in September each year. DoD 4000.25-2-M
establishes the DoD inventory location reconciliation accuracy goal at 97 percent but
does not specify whether the goal applies to weekly or total reconciliations.

DLA reported an inventory reconciliation accuracy rate of 99.56 percent on its “Total
Reconciliation Inventory Comparison Summary Report” for FY 2006. We were unable
to validate this rate because DLA could not provide the supporting EBS data files. We
analyzed weekly summary reports generated in FY 2007 to determine the DLA location
reconciliation accuracy rate for active inventory items. During this analysis, we
identified a flaw in the methodology used to calculate the inventory reconciliation
accuracy rate which caused the rate to be overstated.

The DLA inventory reconciliation accuracy rate is calculated at the end of the process on
inventory record management Report S, “Inventory Comparison Report: Summary
Totals.” For purposes of this report, EBS calculates the inventory reconciliation
accuracy rate by dividing the reported “Total Number of Inventory Lines Balanced” by
the reported “Total Number of Inventory Lines Compared.” Our review of the functional
design of the report identified a flaw in the programming.

The report contains a category of location reconciliation errors titled “History Not
Received.” These items had quantity discrepancies when inventory balances in EBS
were compared to those at the DoD storage activities. However, when EBS requested
transaction histories from the DoD storage activity for further comparison during the
process, the DoD storage activity did not transmit the transaction history back.
According to the report’s functional design, these items are not contained in the “Total
Number of Inventory Lines Compared” or the “Total Number of Inventory Lines Not
Balanced” categories. As a result, the reported “Total Percent Balanced” and the “Total
Percent Identified Errors” are not accurate. The “Total Percent Balanced” represents the
DLA inventory reconciliation accuracy rate and the “Total Percent Identified Errors”
represents percentage of cataloging errors found between the EBS and the DoD storage
activity systems.

As illustrated in the following table, our review of 24 weekly summary reports for
October 2006 through May 2007 revealed that the DLA location reconciliation accuracy
rate for active inventory items consistently fell below the DoD accuracy goal. In
addition, the table also shows the results of our analysis which revealed that on average
the weekly accuracy rate dropped 3.66 percent per DoD storage activity after properly
adding the category of “History Not Received” into the “Total Number of Inventory
Lines Compared.”


                                            21
          Analysis of Weekly Inventory Reconciliation Accuracy Rates

                                               Inventory       Total     Percent
           Inventory   Inventory     Total       Lines        Percent    Change
             Lines       Lines      Percent    Compared      Balanced     After
 Week      Compared    Balanced    Balanced   (Corrected)   (Corrected) Correction
 10/3/2006   97,195     91,071      93.70       99,947        91.12        -2.58
10/11/2006 117,236     114,580      97.73      125,121        91.58        -6.15
10/18/2006 120,370     110,934      92.16      123,145        90.08        -2.08
10/24/2006   99,249     90,016      90.70      111,600        80.66       -10.04
10/31/2006 127,274     113,132      88.89      136,495        82.88        -6.01
 11/7/2006 181,085     169,292      93.49      185,224        91.40        -2.09
11/14/2006 133,038     125,913      94.64      136,856        92.00        -2.64
 12/1/2006 240,869     229,601      95.32      244,205        94.02        -1.30
  1/5/2007   84,252     77,301      91.75       88,733        87.12        -4.63
 1/16/2007 149,610     146,912      98.20      159,183        92.29        -5.91
 1/23/2007 139,497     131,584      94.33      142,560        92.30        -2.03
 2/14/2007 169,754     159,162      93.76      172,403        92.32        -1.44
 2/22/2007 152,523     141,219      92.59      154,106        91.64        -0.95
 2/27/2007 128,511     116,329      90.52      131,733        88.31        -2.21
  3/6/2007 157,707     154,978      98.27      168,344        92.06        -6.21
 3/20/2007 141,989     139,207      98.04      151,088        92.14        -5.90
 3/27/2007 154,162     143,724      93.23      156,368        91.91        -1.32
  4/3/2007 146,573     143,757      98.08      156,061        92.12        -5.96
 4/19/2007 272,057     252,486      92.81      272,148        92.78        -0.03
 4/24/2007 125,270     115,631      92.31      129,023        89.62        -2.68
  5/1/2007 151,381     149,230      98.58      160,776        92.82        -5.76
 5/11/2007 157,418     149,969      95.27      163,934        91.48        -3.79
 5/15/2007 154,028     146,349      95.01      160,437        91.22        -3.80
 5/22/2007 189,778     182,093      95.95      194,406        93.67        -2.28
  Average Percent Change                                                   -3.66




                                      22
Defense Logistics Agency Comments




                  Click to add JPEG file




                                 23
Click to add JPEG file




               24
Click to add JPEG file




               25
Click to add JPEG file




               26
Click to add JPEG file




               27
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Paul J. Granetto
Patricia A. Marsh
Amy J. Frontz
Anthony C. Hans
Brian M. Stumpo
Bethany L. S. Hartman
Erin S. Hart
